CERTIFICATE OF SERVICE
NO. TBD
Charles T. Marshall
Petitioner(s)
v.
Federal Trade Commission
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CHARLES
T. MARSHALL PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Ave.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for Federal Trade Commission

Lucas DeDeus

December 20, 2019
SCP Tracking: Barnes, Esq.-601 South Figueroa Street, Suite 4050-Cover White

CERTIFICATE OF SERVICE OF NOTICE UNDER SUP. CT. R. 12.6
NO. TBD
Charles T. Marshall, Petitioner,
v.
Federal Trade Commission, Respondent.
STATE OF CALIFORNIA
COUNTY OF LOS ANGELES

)
) SS.:

Being duly sworn, I depose and say under penalty of perjury:
I am counsel of record for Petitioner Charles T. Marshall. The parties listed on the
second page of this certificate were moving parties in the U.S. District Court, but not the
Court of Appeals. These parties have no interest in the outcome of the petition and are
not parties to this petition, which pertains only to issues raised by and specific to the
Petitioner’s case. Pursuant to Sup. Ct. R. 12.6, on the undersigned date, I did serve these
parties notice by U.S. Mail that a petition was filed, and that Petitioner believes they
have no interest in the outcome of the petition.
ROBERT E. BARNES, ESQ.

COUNSEL OF RECORD

BARNES LAW

601 SOUTH FIGUEROA STREET,
SUITE 4050
LOS ANGELES, CA 90017
(310) 510-6211
ROBERTBARNES@BARNESLAWLLP.COM

COUNSEL FOR PETITIONER
December 20, 2019

Barnes Rule 12.6 Certificate Page 1 of 2

Livvia Wilson
c/o Michael A. Thurman
Thurman Legal
1055 East Colorado Blvd., 5th Floor
Pasadena, CA 91106

Jeremy Foti
c/o Michael A. Thurman
Thurman Legal
1055 East Colorado Blvd., 5th Floor
Pasadena, CA 91106

Stuart W. Price
c/o Rosario L. Vizzie
Bryan Cave Leighton Paisner LLP
120 Broadway, Suite 300
Santa Monica, CA 90401-2386

JPMorgan Chase Bank, N.A.
c/o Mariel Alexandria G. Gerlt-Ferraro
Parker Ibrahim & Berg LLC
695 Town Center Dr., 16th Floor
Costa Mesa, CA 92626

Damian Kutzner
511 Cliff Drive
Newport Beach, CA 92663

Vito Torchia, Jr.
8033 Sunset Blvd., Suite 819
Los Angeles, CA 90046

Jonathan Tarkowski
c/o John Sung Cha
Raines Feldman LLP
1800 Avenue of the Stars, 12th Floor
Los Angeles, CA 90067

R. Geoffrey Broderick
20 Paseo Canos
San Clemente, CA 92673

Brookstone Law PC
3050 Sirius Ave., Suite 104
Las Vegas, NV 89102

Advantis Law PC
11840 Von Karman Ave., #1000
Irvine, CA 92612

Thomas W. McNamara
McNamara Smith LLP
655 West Broadway, Suite 1600
San Diego, CA 92101

Val-Chris Investments, Inc.
c/o Julian K. Bach
Law Office of Julian Bach
7911 Warner Avenue
Huntington Beach, CA 92647

Neil R. Anenberg and Carol A. Anenberg, Trustees of
the Neil R. Anenberg and Carol A. Anenberg Family
Trust dated August 27, 1984
c/o Julian K. Bach
Law Office of Julian Bach
7911 Warner Avenue
Huntington Beach, CA 92647

Barnes Rule 12.6 Certificate Page 2 of 2

